TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                          Annual Assessment of the
                   Business Systems Modernization Program



                                             June 2006

                              Reference Number: 2006-20-102




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   June 30, 2006


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Annual Assessment of the Business Systems
                               Modernization Program (Audit # 200620008)

 This report presents the results of our Annual Assessment of the Business Systems
 Modernization Program. The overall objective of this review was to assess the progress of the
 Business Systems Modernization (BSM) program for Fiscal Year (FY) 2006, as required by the
 Internal Revenue Service (IRS) Restructuring and Reform Act of 1998.1
 The BSM program is a complex effort to modernize the IRS’ technology and related business
 processes. According to the IRS, this effort will involve integrating thousands of hardware and
 software components. All of this must be done while replacing outdated technology and
 maintaining the current tax system. The BSM program is in its eighth year and has received
 approximately $2.1 billion for contractor services. Additionally, the IRS had spent $170 million
 through FY 2005 and plans to spend an additional $50 million in FY 2006 to manage the BSM
 program.

 Synopsis
 The BSM program’s efforts to modernize IRS technology over the last 8 years have achieved
 mixed results. During this period, the IRS made changes to the program in response to many
 difficult challenges. This past year, the IRS began taking dramatic actions by restructuring and
 redesigning significant areas within the BSM program. Some examples include the IRS taking
 over the role of systems integrator2 from the PRIME contractor, developing a new Modernization
 Vision and Strategy, and changing its approach from completely replacing current business

 1
   Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app., 16
 U.S.C., 19 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
 2
   See Appendix IV for a Glossary of Terms.
                                        Annual Assessment of the Business
                                         Systems Modernization Program



systems to using current business systems to accomplish                              Extensive changes signal the
modernization. We believe these extensive changes signal the                         beginning of a different phase
beginning of a different phase and approach for the entire                            and approach for the entire
modernization effort.                                                                    modernization effort.

Along with accomplishments made at the BSM program level,
the IRS and its contractors have completed modernized projects
that provide significant benefits to taxpayers. For example, the IRS reports the Modernized
e-File project has resulted in over $18 million in savings to businesses, through reductions in tax
preparation fees, postage, and storage, and within the IRS through efficiencies gained. Another
example is the Customer Account Data Engine project. This system has generated over
$1 billion in tax refunds and provides refunds to taxpayers 50 percent faster than the old system.
While the successes achieved are commendable, the IRS and its contractors have struggled to
develop mature management capabilities and implement defined and repeatable processes
necessary for effective and efficient systems development. As a result, the BSM program has
experienced project cost increases and schedule delays.
In 2004, the IRS decided to revise existing project cost and schedule estimates and began
creating estimates for smaller pieces of work, known as subreleases. Prior to revising the
estimates, the Commissioner reported the IRS and its contractors had not met cost or schedule
estimates for any of its projects. Since breaking down
releases into smaller, more manageable pieces as suggested by
the Clinger-Cohen Act,3 the IRS and its contractors are doing        Since breaking down releases
                                                                    into smaller, more manageable
better at meeting cost and schedule estimates. However, some
                                                                         pieces, the IRS and its
projects still encounter cost increases and schedule delays of      contractors are doing better at
greater than 10 percent.4                                             meeting cost and schedule
                                                                                              estimates.
The severely reduced modernization funding levels over the
last several years have been a concern for the IRS and the
IRS Oversight Board. With the possibility of continued reductions to the BSM program in the
coming years, the IRS’ ability to provide the level of service taxpayers expect will be affected.
If the BSM program continues to show improvement, we believe additional funding should be
considered. However, we caution against any drastic increases in funding, as they may exceed
the IRS’ ability to effectively and efficiently manage the BSM program.
Since FY 2002, our BSM annual assessments have cited four specific challenges the IRS needs
to overcome to deliver a successful modernization effort: 1) implement planned improvements


3
  Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app., 10 U.S.C., 15 U.S.C.,
16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41 U.S.C., 42 U.S.C.,
44 U.S.C., 49 U.S.C., 50 U.S.C.).
4
  See Appendix IX for the BSM cost and schedule variance summary.
                                                                                                                     2
                                        Annual Assessment of the Business
                                         Systems Modernization Program



in key management processes and commit necessary resources to enable success, 2) manage the
increasing complexity and risks of the BSM program, 3) maintain the continuity and strategic
direction with experienced leadership, and 4) ensure contractor performance and accountability
are effectively managed. The IRS is at a juncture where it can build upon the successes and
lessons learned from the first 8 years of the BSM program; however, we continue to believe the
eventual success of the modernization effort will depend on how well the IRS deals with these
four specific challenges.
The Federal Managers’ Financial Integrity Act of 19825 requires each Federal Government
agency to prepare for Congress and the President an annual report that identifies material
weaknesses and the agency’s corrective action plans and schedules. Since 1995, the IRS has
identified and reported systems modernization as a
material weakness. We believe systems modernization
should remain a material weakness for the IRS based on        Systems modernization should
                                                                remain a material weakness
open modernization corrective actions and the significance               for the IRS.
of the BSM program to external stakeholders.

Response
The Chief Information Officer responded he was pleased this report recognized the significant
actions the IRS has taken to meet the BSM program’s many challenges. He also provided some
of the benefits BSM projects are accruing to both taxpayers and the IRS, including the issuance
of over $3.3 billion in refunds by the Customer Account Data Engine project. Management’s
complete response to the draft report is included as Appendix XII.
Copies of this report are also being sent to the IRS managers affected by the report observations.
Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant
Inspector General for Audit (Information Systems Programs), at (202) 622-8510.




5
    31 U.S.C. §§ 1105, 1113, 3512 (2000).




                                                                                                  3
                                               Annual Assessment of the Business
                                                Systems Modernization Program




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Extensive Changes Signal a New Phase of the Business Systems
          Modernization Program ................................................................................Page 3
          Assessment of the First 8 Years of the Modernization Program ..................Page 5
          Four Major Challenges Will Continue to Exist in the Next
          Phase of the Modernization Program............................................................Page 11
          The Modernization Effort Should Remain a Material Weakness
          for the Internal Revenue Service...................................................................Page 15
          Overall Conclusion .......................................................................................Page 17

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 18
          Appendix II – Major Contributors to This Report ........................................Page 20
          Appendix III – Report Distribution List .......................................................Page 21
          Appendix IV – Glossary of Terms................................................................Page 22
          Appendix V – Business Systems Modernization Funding Timeline ............Page 28
          Appendix VI – Highest Priority Initiatives...................................................Page 33
          Appendix VII – Enterprise Life Cycle Overview .........................................Page 34
          Appendix VIII – Business Systems Modernization Projects
          and Status ......................................................................................................Page 38
          Appendix IX – Modernization Project Cost and Schedule
          Estimates and Revisions ...............................................................................Page 46
                                  Annual Assessment of the Business
                                   Systems Modernization Program



Appendix X – Open Recommendations Related to the Systems
Modernization Material Weaknesses............................................................Page 49
Appendix XI – Recent Treasury Inspector General for Tax
Administration Reports and Associated Findings on Business
Systems Modernization.................................................................................Page 53
Appendix XII – Management’s Response to the Draft Report.....................Page 55
                                       Annual Assessment of the Business
                                        Systems Modernization Program




                                            Background

The Internal Revenue Service (IRS) Restructuring and Reform Act of 19981 requires the
Treasury Inspector General for Tax Administration (TIGTA) to annually evaluate the adequacy
and security of the IRS’ information technology. This report provides our assessment of the IRS
Business Systems Modernization (BSM) program for Fiscal Year (FY) 2006.
The BSM program is a complex effort to modernize the IRS’ technology and related business
processes. According to the IRS, this effort will involve integrating thousands of hardware and
software components. All of this must be done while replacing outdated technology and
maintaining the current tax system.
The BSM program is in its eighth year and has received
                                                                         The BSM program is in its eighth
approximately $2.1 billion for contractor services.                           year and has received
Additionally, the IRS had spent $170 million through                      approximately $2.1 billion for
FY 2005 and plans to spend an additional $50 million in                        contractor services.
FY 2006 to manage the BSM program.2
This review was performed at the Modernization and
Information Technology Services organization facilities in New Carrollton, Maryland. The
information presented in this report is derived from current and previous TIGTA, Government
Accountability Office (GAO), and IRS Oversight Board reports and discussions with appropriate
BSM officials. We also intended to review the MITRE Corporation’s3 annual report on the
BSM program, which is designed to provide up-to-date recommendations for adjustments and
corrections to BSM program activities.4 The results of this study were presented to the IRS in
November 2005; however, the formal report had not been finalized by the time our review
concluded in April 2006.
Compilation of information for this report was conducted during the period January through
April 2006. Previous audits and our limited analyses were conducted in accordance with

1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  See Chart 3 of Appendix V for details.
3
  See Appendix IV for a Glossary of Terms.
4
  In 2003, the IRS and the PRIME contractor initiated four studies to help identify the root causes of the problems
hindering the BSM effort and make recommendations to remedy the problems identified. Key IRS executives and
stakeholders developed actions to address the studies’ recommendations and resolve longstanding BSM issues.
Collectively, these actions became known as the BSM Challenges Plan. The need for this annual assessment was
identified as part of the BSM Challenges Plan. The PRIME contractor is the Computer Sciences Corporation, which
heads an alliance of leading technology companies brought together to assist with the IRS’ efforts to modernize its
computer systems and related information technology.
                                                                                                           Page 1
                                Annual Assessment of the Business
                                 Systems Modernization Program



Government Accounting Standards. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                      Page 2
                                 Annual Assessment of the Business
                                  Systems Modernization Program




                                Results of Review

Extensive Changes Signal a New Phase of the Business Systems
Modernization Program
The BSM program’s efforts to modernize the IRS technology over the last 8 years with funds
exceeding $2 billion have achieved mixed results. During that period, the IRS made changes to
the program in response to many difficult challenges. For example:
   •   In 2002, we reported the IRS and the PRIME contractor had not achieved the maturity
       level needed for effective and efficient systems development. The IRS and the PRIME
       contractor responded by focusing on improving 12 key processes to ensure the success of
       modernization.
   •   In 2003, we reported concerns about the IRS’ ability to manage its portfolio of existing
       projects, and the IRS responded by scaling back the program’s scope and number of
       projects.
   •   In 2004, the IRS and its contractors drew increased criticism and pressure from various
       oversight groups to deliver a successful program. The IRS implemented numerous
       program management improvements such as establishing the Requirements Management
       Office.
The IRS changes over the last several years were               Extensive changes signal the
performed within the existing structure and conceptual         beginning of a different phase
design of modernization. This past year, the IRS began          and approach for the entire
taking dramatic actions by restructuring and redesigning            modernization effort.
significant areas within the BSM program. Some
examples include the IRS taking over the role of systems
integrator from the PRIME contractor, developing a new Modernization Vision and Strategy, and
changing its approach from completely replacing current business systems to using current
business systems to accomplish modernization. We believe these extensive changes signal the
beginning of a different phase and approach for the entire modernization effort.

The IRS is taking over the primary role of systems integrator from the PRIME
contractor
The IRS initially partnered with the PRIME contractor to achieve its overall goal of modernizing
business processes and systems to improve service quality, timeliness, reliability, and privacy.
The IRS relied on the PRIME contractor to act as a systems integrator to find and manage the

                                                                                           Page 3
                                     Annual Assessment of the Business
                                      Systems Modernization Program



best expertise and technical resources to achieve the IRS’ organizational goals. This partnership
was envisioned to deliver world-class practices which would enable the IRS to modernize and
provide top-quality service to taxpayers.
Since its inception, the partnership between the IRS and the PRIME contractor has experienced
difficulties, and the envisioned world-class practices have not been fully realized. In 2003, due
to the continued challenges confronting the BSM program, the IRS started to lose confidence in
the PRIME contractor’s ability to meet its commitments in modernizing the IRS’ business
systems. In May 2004, the IRS stated it was evident the PRIME contractor needed to
significantly improve its performance. In 2005, the IRS began transitioning numerous program
management activities away from the PRIME contractor and taking over the primary role as the
systems integrator for all projects. The systems integrator role is a significant operational change
for the IRS, requiring new procedures, personnel, and offices.

As directed by the House and Senate Appropriations Committees, the IRS is
developing a new version of the Modernization Vision and Strategy
In May 2005, the GAO recommended the IRS Commissioner fully revisit the BSM Vision and
Strategy and develop a new set of long-term goals, strategies, and plans that are consistent with
the IRS’ budgetary outlook and management capabilities.5 The IRS needed a new Vision and
Strategy because the last Modernization Vision and Strategy dated back to FY 2002 and no
longer reflected reality.
In January 2006, the House and Senate Appropriations Committees approved the release of
FY 2006 funds for the BSM program and directed the IRS to provide a draft of its current
Modernization Vision and Strategy to the GAO. The final version of the Modernization Vision
and Strategy was due as we were completing our report and was not considered as part of our
assessment.

The IRS is changing its approach from completely replacing current business
systems to using current business systems to accomplish modernization
In the past, the IRS’ approach to modernizing was an enormous development effort aimed at
replacing its current business systems. The IRS has recognized the need for an integrated
approach to enterprise modernization and is now focusing on a flexible, more realistic approach
that seeks to use current business systems as well as current and future information technology
investments to accomplish modernization. Instead of scrapping and replacing the capabilities of
hundreds of current IRS systems, the IRS will have existing systems evolve into reusable
services. While use of this approach differs from the modernization program of the past, we are
unclear how the IRS will identify and leverage the strengths of existing systems to achieve

5
 Business Systems Modernization: Internal Revenue Service’s Fiscal Year 2005 Expenditure Plan (GAO-05-774,
dated July 2005).
                                                                                                    Page 4
                                           Annual Assessment of the Business
                                            Systems Modernization Program



 modernization goals. The new Modernization Vision and Strategy being developed by the IRS
 may provide additional clarification in this area.

 Assessment of the First 8 Years of the Modernization Program
 As mentioned previously, the BSM program’s efforts to modernize IRS technology over the last
 8 years have achieved mixed results. While the BSM program has experienced setbacks, the IRS
 and its contractors have taken program-level actions that resulted in project-level successes.
 Figure 1 provides examples of significant program-level initiatives undertaken in the first 8 years
 of the BSM program; it is not intended to show every program-level accomplishment.
                                  Figure 1: BSM Program-Level Actions
     YEAR                                               BSM INITIATIVES
     1999      The IRS received funding based on the approval of the first BSM Expenditure Plan.
     2000     The modernized IRS organization was officially inaugurated or “stood up.”
              A comprehensive Enterprise Architecture providing a strategic view of BSM initiatives was approved,
     2001
              and a defined Enterprise Life Cycle6 methodology was completed.
     2002     The IRS took steps to slow the pace of the BSM program to match management capacity and capability.
              Four studies, including a benchmarking analysis, were conducted to assess the health of the BSM
     2003
              program.
              The IRS implemented numerous program management improvements such as establishing the
     2004     Requirements Management Office, implementing a Resource Capacity Model, and creating a
              Performance Engineering Office.
  2005     The IRS took over the primary role of systems integrator from the PRIME contractor.
Source: TIGTA and GAO reports.

 The IRS continues to deliver modernized systems benefiting taxpayers and the
 Federal Government
 Along with accomplishments made at the BSM program-level, the IRS and its contractors have
 completed modernized projects that provide significant benefits to taxpayers and the Federal
 Government. Some of these projects include the Customer Communications, Internet Refund
 Fact of Filing (IRFoF), e-Services, Customer Account Data Engine (CADE), and
 Modernized e-File (MeF) projects.7 Figure 2 provides a snapshot of some of the project-level
 successes launched by the IRS and its contractors.



 6
     See Appendix VII for an overview of the Enterprise Life Cycle.
 7
     See Appendix VIII for descriptions, benefits, and the status of each BSM project.
                                                                                                                Page 5
                                       Annual Assessment of the Business
                                        Systems Modernization Program



                                Figure 2: BSM Launched Projects

            2001                2002                  2003               2004                   2005/
                                                                                                2006
                            - Enterprise                                                      - Integrated
                              Systems                                                           Financial
          - Customer        Management                                                           System
                                                   - Advanced
         Relationship
                            - Security and            Child              - MeF
         Management
                              Technology            Tax Credit                          - New CADE and
             Exam
                            Infrastructure                                                    MeF
                               Release                                                      Releases
          - Customer                               - e-Services         - CADE
        Communications         - IRFoF                                                    - Filing and
                         - Human Resources                                                  Payment
                              Connect                                                  Compliance (F&PC)


    1999                                     BSM – The First 8 Years                                         2006

Source: TIGTA and GAO reports.

The IRS reports the following examples of BSM projects that have provided significant tangible
benefits to taxpayers and the Federal Government.
    •    Customer Communications and IRFoF – The Customer Communications project
         resulted in a 50 percent reduction in wait time for IRS assistors to answer taxpayer calls
         and a 50 percent reduction in abandoned calls. The IRFoF project has also reduced
         telephone refund call volumes by nearly 24 percent, freeing IRS assistors to answer other
         tax inquiries. While not completely attributable to the Customer Communications and
         IRFoF projects, the relative success rate of taxpayers calling for assistance and seeking
         services from an IRS assistor has improved almost 23 percent since the 2002 Filing
         Season, as we reported recently.8
    •    CADE – This system has generated over $1 billion in tax refunds and provides refunds to
         taxpayers 50 percent faster than the old system.
    •    e-Services – The IRS Oversight Board recently reported the e-Services project has freed
         up thousands of IRS staff hours and saved millions of taxpayer dollars in practitioner
         costs.9 The National Taxpayer Advocate recently called the e-Services project an



8
  Taxpayer Service Is Improving, but Challenges Continue in Meeting Expectations (Reference
Number 2006-40-052, dated February 2006).
9
  IRS Oversight Board Annual Report to Congress on Electronic Filing (dated December 2005).
                                                                                                             Page 6
                                    Annual Assessment of the Business
                                     Systems Modernization Program



         “extremely useful and efficient tool” and recommended it be expanded to provide
         benefits to more taxpayers.10
     •   Integrated Financial System – The IRS was able to maintain its clean opinion after
         replacing its old financial system with the Integrated Financial System.
     •   MeF – The MeF project has resulted in over $18 million in savings to businesses through
         reductions in tax preparation fees, postage, and storage, and within the IRS through
         efficiencies gained.
Since our last annual assessment,11 the IRS and its contractors have continued to complete
modernized projects and deliver benefits to taxpayers and the Federal Government. Some of the
most recent project-level accomplishments include implementing additional releases of the MeF
and CADE projects, as well as a partial first release of the F&PC project. In addition, the IRS
and its contractors recently received the Innovative Information Technology Award from the
Government Computer News for the e-Services and MeF projects.

The IRS has struggled to manage program-level and project-level activities
While the successes achieved are commendable, the IRS and its contractors have struggled to
develop mature management capabilities and implement defined and repeatable processes
necessary for effective and efficient systems acquisition and development. Figure 3 shows some
of the challenges experienced within the BSM program and some of the actions the IRS has
taken over the last 8 years in response to these challenges.




10
 National Taxpayer Advocate 2005 Annual Report to Congress Executive Summary (dated December 2005).
11
 Annual Assessment of the Business Systems Modernization Program (Reference Number 2005-20-102, dated
August 2005).
                                                                                                  Page 7
                                      Annual Assessment of the Business
                                       Systems Modernization Program



                      Figure 3: Roadmap of BSM Management Efforts




     Source: TIGTA and GAO reports.

Cost increases and schedule delays have been significant but performance is
improving
Since the beginning of the modernization effort, BSM projects have experienced cost increases
and schedule delays. We reported in the FY 2003 BSM annual assessment that certain
modernized projects were experiencing cost increases of over $35 million and delays of up to
14 months from original estimates.12 One year later, cost increases for projects had grown to
over $86 million and schedule variances had grown to as much as 30 months.13 Due to cost
increases and schedule delays, pressure began mounting from various oversight groups to deliver
a successful program. The IRS Oversight Board stated the “…IRS and its PRIME contractor



12
   Annual Assessment of the Business Systems Modernization Program (Reference Number 2003-20-208, dated
September 2003).
13
   Annual Assessment of the Business Systems Modernization Program (Reference Number 2004-20-107, dated
June 2004).
                                                                                                    Page 8
                                              Annual Assessment of the Business
                                               Systems Modernization Program



cannot continue to operate in a business-as-usual manner.”14 Figure 4 shows a history of some of
the cost and schedule overruns within the BSM program over the last 8 years.
                Figure 4: Cost Increases and Schedule Delays by Calendar Year
             $28.3 million (28%) cost increases continue for projects15
                                                                                                           Significant changes to
                                                                                                               BSM Program

                  IRS rebaselines cost estimates
                                                                                     2005
                Most projects incur significant cost                                            Schedule delays up to14 months
                 increases up to$35 million each                            2004                        for 4 projects

           Project cost increases range from
              $700,000 to over $13 million                                              IRS rebaselines schedule estimates
                                                                  2003

     12 projects experience cost increases                                         All 2003 projects experience schedule
                                                         2002                         delays and deferred capabilities

Enterprise Life Cycle is late and               2001                 Project delays range from4 to 9 months
  costs more than expected

                                       2000                     12 projects experience schedule delays


     Start of BSM Program      1999                    Enterprise Architecture slips on schedule and few commitments are met


Source: Our review of TIGTA and GAO reports.15

In 2004, the IRS decided to revise existing project cost and schedule estimates and began
creating estimates for smaller pieces of work, known as subreleases. Prior to revising the
estimates, the Commissioner reported the IRS and its contractors had not met cost or schedule
estimates for any of its projects. Since breaking down releases into smaller, more manageable
pieces as suggested by the Clinger-Cohen Act,16 the IRS and its contractors are doing better at
meeting cost and schedule estimates. In 2005, IRS executives also stated they were concerned
the existing cost and schedule variance methodology did not accurately depict variances within
the BSM program and held meetings with the GAO and the TIGTA to discuss better ways of
presenting and characterizing cost and schedule estimates. Based on these meetings, the IRS
plans to use a different methodology to calculate and present cost and schedule estimates in
future Expenditure Plans.

14
   Independent Analysis of IRS Business Systems Modernization (dated December 2003).
15
   Annual Assessment of the Business Systems Modernization Program (Reference Number 2005-20-102, dated
August 2005).
16
   Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app., 10 U.S.C., 15
U.S.C., 16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C.,
41 U.S.C., 42 U.S.C., 44 U.S.C., 49 U.S.C., 50 U.S.C.).
                                                                                                                           Page 9
                                     Annual Assessment of the Business
                                      Systems Modernization Program



Using the existing methodology, some projects still encounter
                                                                           Since breaking down releases
cost increases and schedule delays of greater than 10 percent.17          into smaller, more manageable
For example, the Integrated Financial System18 project                         pieces, the IRS and its
recently encountered a $9 million (60 percent) cost increase,             contractors are doing better at
and the MeF19 project encountered a $7.5 million (32 percent)               meeting cost and schedule
cost increase. The GAO review of the IRS’ FY 200620                                  estimates.
Expenditure Plan reported results consistent with our analysis
showing cost and schedule variances still exist for
modernization projects.
Due to the complexity of BSM projects, it is unrealistic to think every project will meet its exact
cost and schedule estimates. However, several project segments are meeting cost and schedule
estimates or are within a 10 percent threshold. The next challenge for the IRS and its contractors
will be to control significant cost and schedule variances and build upon its initial successes with
smaller pieces of work to deliver the BSM program within expectations.

A return on investment for the BSM program has not been determined
A reasonable measure of value to determine the cost effectiveness of the BSM program would be
to measure the return on investment taxpayers and the Federal Government have received from
the BSM effort over the last 8 years. However, a logical assessment of the return on investment
for the BSM program has not been determined because of the following factors:
     •   The full benefits of ongoing projects, such as the CADE and MeF projects, will not be
         realized until future releases are completed to provide additional capabilities and benefits
         to taxpayers,21 making it premature to attempt to determine the return on investment.
     •   In November 2004, the GAO reported the IRS needed to improve its review of
         implemented projects because its reviews did not include an analysis of actual versus
         planned benefits.22 The IRS also responded to a recent TIGTA audit report23 that it was
         creating a program performance framework, including business value measures. Until
         this framework is in place, the IRS cannot determine the return on investment received
         from implemented projects.


17
   See Appendix IX for the BSM cost and schedule variance summary.
18
   Release 1, Milestone 5.
19
   Release 3.2, Milestone 4.
20
   Business Systems Modernization: Internal Revenue Service’s Fiscal Year 2006 Expenditure Plan (GAO-06-360,
dated February 2006).
21
   See Appendix VIII for descriptions, benefits, and the status of each BSM project.
22
   Business Systems Modernization: IRS’s Fiscal Year 2004 Expenditure Plan (GAO-05-46, dated November 2004).
23
   The Business Systems Modernization Program Has Achieved Mixed Success in Addressing Weaknesses Identified
in Internal and External Studies (Reference Number 2006-20-030, November 2005).
                                                                                                   Page 10
                                     Annual Assessment of the Business
                                      Systems Modernization Program



Four Major Challenges Will Continue to Exist in the Next Phase of the
Modernization Program
Since FY 2002, our annual assessments have cited four specific challenges the IRS needs to
overcome to deliver a successful modernization effort. The IRS has continuously taken
corrective actions in response to our recommendations to address these four challenges.
However, the IRS’ recent and planned future changes have not eliminated the four challenges.
Our reviews over the last year found each of the four challenges still exists, and one of these
challenges has expanded.

Challenge 1: Implement planned improvements in key management processes
and commit necessary resources to enable success
Since our last annual assessment,24 we found the IRS continues to need improvement in the areas
of requirements management, cost and schedule estimation, and project justification. We have
issued recommendations in each of these areas in prior audits. Recent reviews show the IRS is
making progress but continues to struggle with defining and institutionalizing these key
management processes.
Requirements management
Recent reviews of two modernized projects25 showed requirements testing processes are not
being followed and system requirements are being deferred to future project releases. During the
completion of the MeF Release 3.2 project, testing activities used by the project team did not
provide assurances the system requirements expected to be deployed were the requirements that
were actually deployed. The project team did not trace the system requirements or update the
System Requirements Report with changes during the testing process. In addition, a planned
performance requirement to display tax and information returns within defined time periods was
not delivered as part of the MeF Release 3.2. This performance requirement was originally
planned to be delivered as part of the MeF Release 1 in February 2004.
For CADE Release 1.3.2, the project team did not timely finalize requirements and did not have
appropriate staffing to fix a high number of failed tests during the systems testing process. This
contributed to the deferral of eight requirements to future releases, and an unknown number of




24
   Annual Assessment of the Business Systems Modernization Program (Reference Number 2005-20-102, dated
August 2005).
25
   Controls Need to Be Strengthened to Ensure the Modernized e-File Project Meets Its Expectations (Reference
Number 2005-20-103, dated September 2005) and Focusing Management Efforts on Long-Term Project Needs Will
Help Development of the Customer Account Data Engine Project (Audit Number 200520012, Draft Report dated
May 2006).
                                                                                                     Page 11
                                     Annual Assessment of the Business
                                      Systems Modernization Program



taxpayers will not receive the benefits associated with the CADE processing. We have reported
on these and similar testing process issues since 2003.26
Cost and schedule estimation
Due to significant cost increases and schedule delays, the BSM program has been criticized for
its ineffective cost and schedule estimation capabilities. A recent audit27 shows the IRS and its
contractors have not always followed cost and schedule estimation processes within the BSM
program. In addition, we determined the IRS is instituting different cost and schedule estimation
processes due to its assumption of the systems integrator role.
Project justification
Office of Management and Budget Circular A-11 Exhibit 300, Capital Asset Plan and Business
Case,28 for major information technology investments requires Federal Government agencies to
conduct an Alternatives Analysis to provide estimated cost and benefit information on viable
alternatives. This, in turn, assists management in determining the most effective approach for a
project. During a recent review,29 the IRS provided a draft Exhibit 300 showing alternatives with
the most viable solutions for the F&PC project. We could not verify the IRS’ decision to
purchase commercially viable software for the F&PC project because project documentation
contained errors and information could not be supported. The new Modernization Vision and
Strategy is now considering the alternative of using current business systems instead of using the
commercial software purchased for the F&PC project.
We reported similar findings during a prior review of four other business cases in April 2005.30
All four business cases contained deficiencies, did not comply with Office of Management and
Budget requirements and, in some cases, did not comply with the IRS’ own Exhibit 300 Business
Case Guide. Due to the importance of this issue, we are currently conducting a followup audit to
determine the status of the IRS’ corrective actions.




26
   Testing Practices for Business Systems Modernization Projects Need Improvement (Reference
Number 2003-20-178, dated September 2003) and Further Enhancements to the Guidance for Testing Practices Will
Help Ensure the Quality of Modernization Projects (Reference Number 2006-20-051, dated March 2006).
27
   While Improvements Have Been Made, Business Systems Modernization Cost and Schedule Estimation Processes
Have Not Always Been Followed and Major Changes Are Planned (Reference Number 2006-20-002, dated
October 2005).
28
   Preparation, Submission, and Execution of the Budget, dated November 2005.
29
   The Alternatives for Designing and Developing the Filing and Payment Compliance Project Should Be
Revalidated (Reference Number 2006-20-026, dated December 2005).
30
   Business Cases for Information Technology Projects Need Improvement (Reference Number 2005-20-074, dated
April 2005).
                                                                                                    Page 12
                                           Annual Assessment of the Business
                                            Systems Modernization Program



Challenge 2: Manage the increasing complexity and risks of the BSM program
As stated earlier, the IRS is taking over the role of systems integrator from the PRIME
contractor, which will increase complexities and introduce new challenges for the BSM program.
The IRS created and is currently working on several Highest Priority Initiatives to develop,
implement, and execute a variety of activities (e.g., expanded cost and schedule estimation,
quality assurance, and requirements management roles).31 Many of the initial Highest Priority
Initiatives concerning the transition have already been completed. Proper management and
operation of these transitioning areas are critical to the success of the BSM program.
In addition to complexities at the program level, the IRS and its contractors face further
complexity at the project level. For example, the CADE project is the IRS’ highest priority
technology project and represents the core foundation of modernized systems. It has experienced
significant cost and schedule setbacks during the initial releases involving the simplest accounts,
and future releases will be more complex. The future of the CADE project is uncertain due to
several factors.
       •   As the IRS adds more complex accounts to the CADE, the IRS and its contractors will
           need to focus on managing business rules existing within current business systems such
           as the Individual Master File account processing that contains tens of thousands of
           business rules. It is a major effort to capture, understand, and manage those business
           rules.
       •   The current release strategy allows the CADE project to be deployed incrementally
           (where accounts processing occurs in both the CADE and the Individual Master File)
           until all accounts have been migrated to the modernized environment. Under the new
           IRS modernization methodology of leveraging current business systems, we are unclear
           how the incremental approach to delivery of the CADE project will affect the Individual
           Master File as both environments are used and grow in complexity.
       •   The IRS does not have an application to allow its employees to view or interactively
           change account information transferred from the Individual Master File to the
           modernized environment. The IRS intended to build this capability through a future
           modernized project, which was deferred due to budget reductions. One of the capabilities
           being considered as part of the new Modernization Vision and Strategy is whether to
           pursue an interim capability to access the CADE and current business systems.
       •   In April 2005, a CADE project study was initiated to address several major concerns,
           including the fact that the current CADE logical design supports only the first two CADE
           releases. Until a long-term logical design is finalized, future releases of the CADE
           cannot be developed.


31
     See Appendix VI for details on the Highest Priority Initiatives.
                                                                                           Page 13
                                 Annual Assessment of the Business
                                  Systems Modernization Program



Challenge 3: Maintain the continuity and strategic direction with experienced
leadership
The IRS continues to make significant, program-level changes causing difficulties in maintaining
continuity or direction within the BSM program. While it is important to make corrections, there
is an associated cost. For example, personnel often experience a learning curve when confronted
with major changes.
Recently, the IRS restructured the Modernization and Information Technology Services
organization by creating the new Applications Development and Enterprise Services functions.
The Applications Development function is to build, test, deliver, and maintain information
technology application systems that will support modernized systems and current systems. The
Enterprise Services function combines all technical services (e.g., systems engineering,
architecture, and program management) into a single function. The creation of these two
complementary functions eliminates any operational separation between the BSM program and
all other systems development work within the IRS.
The restructuring has caused changes to existing management and executive roles while creating
new management roles and positions that have been or are currently being filled. As new and
expanded roles are undertaken, a reasonable period of time will be needed to adapt to new roles
and structures. The learning curve time will be an additional challenge to maintaining continuity
with experienced leadership within the BSM program. In addition, it may be challenging for
Applications Development and Enterprise Services function managers to focus on modernization
because they will be responsible for both current and modernized systems.
Another major change for the BSM program is the new Modernization Vision and Strategy. As
reported earlier, the GAO recommended the IRS Commissioner fully revisit the Modernization
Vision and Strategy and develop a new set of long-term goals, strategies, and plans. This change
will continue to challenge the IRS’ ability to maintain continuity and strategic direction within
the modernization effort.

Challenge 4: Ensure contractor performance and accountability are effectively
managed
In the past, the fourth challenge focused on the IRS’ ability to manage the PRIME contractor’s
performance. The PRIME contractor, as the previous systems integrator, was responsible for
managing contractors and subcontractors within the BSM program. Since the IRS is taking over
the primary role of systems integrator, this challenge has expanded to include not only managing
and ensuring the performance and accountability of the PRIME contractor but also managing and
ensuring the performance and accountability of all modernization contractors. Therefore, we
have eliminated the reference to the PRIME contractor for this challenge.
The IRS has long recognized the need to improve management of BSM task orders and has been
emphasizing the increased use of performance-based contracting techniques. As part of this

                                                                                         Page 14
                                    Annual Assessment of the Business
                                     Systems Modernization Program



effort, we have recommended and the IRS has emphasized the use of firm fixed-price task
orders. However, barriers exist for using firm fixed-price task orders on BSM projects. For
example, two recent CADE releases are not using firm fixed-price task orders. This is due in
part to the IRS and the PRIME contractor’s inability to reach agreement on the amount of effort
necessary to complete various CADE releases.
The IRS continues to make improvements to fully implement performance-based contracting.
For example, the IRS has issued guidance on implementing firm fixed-price task orders,
developing measurable performance standards, and developing monitoring plans. It has also
trained IRS and PRIME contractor personnel on the new firm fixed-price policy. However, the
performance-based contracting improvements have produced mixed results and have not been
completely effective as the BSM program has struggled to institute revised processes.
We recently conducted audits of two task orders32 and determined contract monitoring could be
strengthened. In one audit, we determined the IRS was not performing quality reviews of all
work items or making overall performance assessments of the PRIME contractor. In both audits,
we determined the IRS was receiving items of significant value from its contractors; however, it
did not always receive the expected or full value for all work items, indicating an inefficient use
of Federal Government funds and a need for improved contract monitoring.

The Modernization Effort Should Remain a Material Weakness for the
Internal Revenue Service
The Federal Managers’ Financial Integrity Act of 198233
requires each Federal Government agency to prepare for            Systems modernization should
                                                                    remain a material weakness
Congress and the President an annual report that identifies          for the IRS based on open
material weaknesses and the agency’s corrective action                modernization corrective
plans and schedules. Since 1995, the IRS has identified and       actions and the significance of
reported systems modernization as a material weakness.             the BSM program to external
                                                   34
Office of Management and Budget Circular A-123 defines                      stakeholders.
a material weakness as any condition an agency head
determines to be significant enough to be reported outside
the agency. To maintain the high level of attention, focus, and accountability, we believe
systems modernization should remain a material weakness for the IRS based on open



32
   Strengthened Management Processes Are Needed to Assure the Usefulness of Products and Services Received
Through the Infrastructure Shared Services Task Order (Reference Number 2006-20-063, dated March 2006) and
The Business Systems Modernization Program Is Receiving Value From Contract Work; However, Monitoring Can
Be Strengthened (Reference Number 2006-20-079, dated May 2006).
33
   31 U.S.C. §§ 1105, 1113, 3512 (2000).
34
   Management's Responsibility for Internal Control, dated December 2004.
                                                                                                  Page 15
                                           Annual Assessment of the Business
                                            Systems Modernization Program



modernization corrective actions and the significance of the BSM program to external
stakeholders as discussed below.

Open modernization corrective actions
In response to the material weakness, the IRS developed a plan containing five high-level areas
with specific corrective actions to address the material weakness.
       1. Assess recommendations from special studies and reviews of the BSM program and
          projects.
       2. Implement and institutionalize procedures for validating contractor-developed cost and
          schedules.
       3. Establish effective contract management practices.
       4. Complete the human capital strategy.
       5. Improve configuration management practices.
As of December 2005, all corrective actions listed in the plan had been closed by the IRS;
however, the information in the plan had not been updated to reflect new issues identified
since 2003. The IRS currently has open corrective actions from TIGTA audit recommendations
in all five high-level areas.35
In addition, the IRS creates Highest Priority Initiatives every 6 months to address needed
improvements. These Initiatives also relate to the high-level areas in the plan. However, the
material weakness plan has not been updated to include open corrective actions and
improvement initiatives.

Significance of the BSM program to external stakeholders
The United States Senate Committee on Appropriations, in its FY 2006 letter approving the
release of BSM funds, stated “Nevertheless, we continue to believe that senior IRS management
and leadership must acknowledge the serious risks associated with BSM and maintain high level
attention, focus, and accountability for this important project.”
In addition, the IRS recently reorganized its Modernization and Information Technology
Services organization. According to the IRS, its development and delivery capabilities have
been realigned to eliminate unnecessary barriers between modernization and nonmodernization
organizations.
Continuing to designate systems modernization as a material weakness will ensure the BSM
program receives continued attention and focus separate from other IRS systems development


35
     See Appendix X for a list of open corrective actions related to a material weakness.
                                                                                            Page 16
                                  Annual Assessment of the Business
                                   Systems Modernization Program



activities due to the sensitivity and outside interests in the program and ensure actions are taken
to address newly identified issues.

Overall Conclusion
The BSM program’s efforts to modernize IRS technology over the last 8 years with funds
exceeding $2 billion have achieved mixed results. The IRS and its contractors have completed
modernized projects that provide significant benefits to taxpayers. In addition, the IRS and its
contractors are performing better against cost and schedule estimates since breaking down
releases into smaller, more manageable pieces.
The severely reduced modernization funding levels over the last several years have been a
concern for the IRS and the IRS Oversight Board. With the possibility of continued reductions
to the BSM program in the coming years, the IRS Oversight Board reiterates its position that
cutting back modernization funding will force the program to take longer and cost more than
necessary. The Board also states that, if the IRS can continue to demonstrate improvement, it
would seem desirable and logical to increase BSM program funding.
In the past, we recommended the IRS slow the pace of the BSM program to have a better chance
of attaining goals and benefits. Since slowing the pace of the program, the IRS and its
contractors demonstrated they can perform better and deliver results. With the possibility of
continued reductions to the BSM program in the coming years, the IRS’ ability to provide the
level of service taxpayers expect will be affected. If the BSM program continues to show
improvement, we believe additional funding should be considered. However, we caution against
any drastic increases in funding, as they may exceed the IRS’ ability to effectively and efficiently
manage the BSM program.
Since FY 2002, we have cited four specific challenges the IRS needs to address to deliver a
successful modernization effort. The IRS’ recent and planned future changes do not eliminate
the four challenges. The IRS is at a juncture where it can build upon the successes and lessons
learned from the first 8 years of the BSM program; however, we continue to believe the eventual
success of the modernization effort will depend on how well the IRS responds to these four
specific challenges.
Management’s Response: The Chief Information Officer responded he was pleased this
report recognized the significant actions the IRS has taken to meet the BSM program’s many
challenges. He also provided some of the benefits BSM projects are accruing to both taxpayers
and the IRS, including the issuance of over $3.3 billion in refunds by the CADE project.




                                                                                            Page 17
                                       Annual Assessment of the Business
                                        Systems Modernization Program



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the progress of the Business Systems
Modernization (BSM) program for Fiscal Year 2006, as required by the Internal Revenue
Service (IRS) Restructuring and Reform Act of 1998.1 To accomplish this objective, we:
I.      Determined the current condition of the BSM program.
        A. Obtained and reviewed Treasury Inspector General for Tax Administration reports
           issued from May 2005 through March 20062 and four previous BSM annual
           assessment reports (issued in 2002, 2003, 2004, and 20053).
        B. Obtained and reviewed recent IRS Oversight Board documents to identify current
           IRS Oversight Board issues and concerns.
        C. Obtained and reviewed Government Accountability Office reports relevant to BSM
           program activities. We also intended to review a key MITRE Corporation4 report.
           Specifically, the MITRE Corporation is required to annually assess the BSM program
           and provide up-to-date recommendations for adjustments and corrections to BSM
           program activities.5 The results of this key study were ready in November 2005.
           However, the IRS had not finalized the report by the time our audit concluded.




1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app., 16
U.S.C., 19 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  See Appendix XI for a detailed list of recent Treasury Inspector General for Tax Administration reports and
associated findings.
3
  Annual Assessment of the Business Systems Modernization Program (Reference Number 2002-20-189,
dated September 2002), Annual Assessment of the Business Systems Modernization Program (Reference
Number 2003-20-208, dated September 2003), Annual Assessment of the Business Systems Modernization Program
(Reference Number 2004-20-107, dated June 2004), and Annual Assessment of the Business Systems Modernization
Program (Reference Number 2005-20-102, dated August 2005).
4
  See Appendix IV for a Glossary of Terms.
5
  In 2003, the IRS and the PRIME contractor initiated four studies to help identify the root causes of the problems
hindering the BSM effort and make recommendations to remedy the problems identified. Key IRS executives and
stakeholders developed actions to address the studies’ recommendations and resolve longstanding BSM issues.
Collectively, these actions became known as the BSM Challenges Plan. The need for this annual assessment was
identified as part of the BSM Challenges Plan. The PRIME contractor is the Computer Sciences Corporation, which
heads an alliance of leading technology companies brought together to assist with the IRS’ efforts to modernize its
computer systems and related information technology.
                                                                                                         Page 18
                                           Annual Assessment of the Business
                                            Systems Modernization Program



II.        Determined the status and condition of the BSM program as reported by the IRS.
           A. Reviewed the systems modernization material weakness plan.
           B. Reviewed interim Modernization Vision and Strategy documents.
           C. Reviewed BSM Expenditure Plans and evaluated any cost, schedule, and
              functionality variances.
           D. Reviewed the IRS’ Highest Priority Initiatives6 status reports for the BSM program.




6
    See Appendix VI for details on the Highest Priority Initiatives.
                                                                                            Page 19
                                Annual Assessment of the Business
                                 Systems Modernization Program



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary Hinkle, Director
Troy Paterson, Audit Manager
Phung Nguyen, Lead Auditor
Bruce Polidori, Senior Auditor




                                                                                     Page 20
                              Annual Assessment of the Business
                               Systems Modernization Program



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Applications Development OS:CIO:B
Associate Chief Information Officer, Enterprise Services OS:CIO:ES
Deputy Associate Chief Information Officer, Applications Development OS:CIO:AD
Deputy Associate Chief Information Officer, Business Integration OS:CIO:ES:BI
Deputy Associate Chief Information Officer, Systems Integration OS:CIO:ES:SI
Director, Stakeholder Management OS:CIO:SM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Associate Chief Information Officer, Applications Development OS:CIO:B
       Director, Program Oversight Office OS:CIO:SM:PO




                                                                                 Page 21
                              Annual Assessment of the Business
                               Systems Modernization Program



                                                                          Appendix IV

                              Glossary of Terms

Term                                      Definition
Business Rule                             A business rule is a statement that defines or
                                          constrains some aspect of the business.
Business Rules Harvesting                 A business rule is a statement that defines or
                                          constrains some aspect of the business.
                                          Harvesting is a general term used to broadly
                                          describe the entire set of activities involved in
                                          gathering, formalizing, analyzing, and
                                          validating business rules for a particular scope.
Campus                                    The campuses are the data processing arm of
                                          the Internal Revenue Service (IRS). They
                                          process paper and electronic submissions,
                                          correct errors, and forward data to the
                                          Computing Centers for analysis and posting to
                                          taxpayer accounts.
Capital Planning Investment and Control   The Capital Planning Investment and Control
                                          process manages a central portfolio of
                                          information technology investments across the
                                          IRS.
Change Request                            A change request is the medium for requesting
                                          approval to change a baselined product or other
                                          controlled item.
Clean opinion                             A clean opinion refers to an auditor’s opinion
                                          reflecting an unqualified acceptance of an
                                          agency’s financial statements.
Collection Contract Support               The Collection Contract Support project will
                                          provide support to enable private collection
                                          agencies to supplement the IRS’ internal
                                          collection staff. The Collection Contract
                                          Support project is now part of the Filing and
                                          Payment Compliance project.


                                                                                   Page 22
                               Annual Assessment of the Business
                                Systems Modernization Program




Term                                           Definition
Configuration Management                       Configuration management involves
                                               establishing proper control over approved
                                               project documentation, hardware, and software
                                               and assuring changes are authorized,
                                               controlled, and tracked.
Customer Account Data Engine                   The Customer Account Data Engine is the
                                               foundation for managing taxpayer accounts in
                                               the IRS modernization plan. It will consist of
                                               databases and related applications that will
                                               replace the IRS’ existing Master File
                                               processing systems and will include
                                               applications for daily posting, settlement,
                                               maintenance, refund processing, and issue
                                               detection for taxpayer tax account and return
                                               data.
Customer Communications                        The Customer Communications project has
                                               improved customer service by increasing the
                                               capacity of the toll-free telephone system and
                                               providing the ability to route taxpayers’ calls to
                                               the appropriate IRS employees.
Deferral                                       Deferrals are approved requests for verification
                                               of a requirement or set of requirements to be
                                               moved to another phase of testing.
Enterprise Integration, Test, and Evaluation Enterprise Integration, Test, and Evaluation
                                             includes processes for integrating multiple
                                             components of a solution and conducting
                                             various types and levels of testing on the
                                             solution.
e-Services                                     The e-Services project provides a set of
                                               web-based business products as incentives to
                                               third parties to increase electronic filing, in
                                               addition to providing electronic customer
                                               account management capabilities to all
                                               businesses, individuals, and other customers.




                                                                                        Page 23
                                 Annual Assessment of the Business
                                  Systems Modernization Program




Term                                        Definition
Exhibit 300                                 The Exhibit 300 is a Capital Asset Plan and
                                            Business Case required by the Office of
                                            Management and Budget.
Extensible Markup Language                  Extensible Markup Language is the universal
                                            format for structured documents and data on
                                            the Internet.
Filing and Payment Compliance               The Filing and Payment Compliance project
                                            will provide support for detecting, scoring, and
                                            working nonfiler cases (filing compliance) and
                                            delinquency cases (payment compliance).
Filing Season                               The period from January through mid-April
                                            when most individual income tax returns are
                                            filed.
Firm Fixed-Price Task Order                 A firm fixed-price task order sets a price that is
                                            not subject to any adjustment because of cost
                                            overruns incurred by the contractor.
Forms 1040EZ, 1040, and 1040A               The Form 1040 series of IRS forms includes
                                            individual income tax returns.
Individual Master File                      The IRS database that maintains transactions
                                            or records of individual tax accounts.
Integrated Financial System (IFS)           The IFS is intended to address administrative
                                            financial management weaknesses. The first
                                            release of the IFS will include the Accounts
                                            Payable, Accounts Receivable, General
                                            Ledger, Budget Execution, Cost Management,
                                            and Financial Reporting activities. A future
                                            IFS release will be needed to fully resolve all
                                            administrative financial management
                                            weaknesses.
Internet Refund Fact of Filing              The Internet Refund Fact of Filing project
                                            improves customer self-service by providing
                                            instant refund status information and
                                            instructions for resolving refund problems to
                                            taxpayers with Internet access.


                                                                                      Page 24
                            Annual Assessment of the Business
                             Systems Modernization Program




Term                                       Definition
IRS Oversight Board                        The IRS Oversight Board is an independent
                                           body charged to provide the IRS with long-
                                           term guidance and direction.
Joint Audit Management Enterprise System   The Joint Audit Management Enterprise
                                           System is a Department of the Treasury
                                           database that monitors and tracks the progress
                                           of internal control issues and material
                                           weaknesses within the Department.
Master File                                The IRS database that stores various types of
                                           taxpayer account information. This database
                                           includes individual, business, and employee
                                           plans and exempt organizations data.
Material Weakness                          A material weakness is a reportable condition
                                           significant enough to be reported outside the
                                           agency.
Milestone                                  Milestones provide for “go/no-go” decision
                                           points in a project and are sometimes
                                           associated with funding approval to proceed.
MITRE Corporation                          The IRS hired the MITRE Corporation as a
                                           Federally Funded Research and Development
                                           Center to assist with the IRS’ systems
                                           modernization effort.
Modernized e-File                          The Modernized e-File project develops the
                                           modernized, web-based platform for filing
                                           approximately 330 IRS forms electronically,
                                           beginning with the U.S. Corporation Income
                                           Tax Return (Form 1120), U.S. Income Tax
                                           Return for an S Corporation (Form 1120S),
                                           and Return of Organization Exempt From
                                           Income Tax (Form 990). The project serves to
                                           streamline filing processes and reduce the costs
                                           associated with a paper-based process.




                                                                                   Page 25
                              Annual Assessment of the Business
                               Systems Modernization Program




Term                                     Definition
Performance-Based Contracting            Use of performance-based contracting means
                                         structuring all aspects of an acquisition around
                                         the purpose of the work to be performed, with
                                         the contract requirements set forth in clear,
                                         specific, and objective terms with measurable
                                         outcomes.
PRIME Contractor                         The PRIME contractor is the Computer
                                         Sciences Corporation, which heads an alliance
                                         of leading technology companies brought
                                         together to assist with the IRS’ efforts to
                                         modernize its computer systems and related
                                         information technology.
PRIME Estimation Guidebook               The PRIME Estimation Guidebook describes
                                         the framework for the processes used to
                                         produce cost and schedule estimates associated
                                         with PRIME contractor task order proposals.
Release                                  A release is a specific edition of software.
Request for Information Services         A Request for Information Services is a formal
                                         memorandum requesting organization support
                                         for changes to current or planned
                                         programming, corporate hardware, commercial
                                         off-the-shelf software applications, system
                                         testing, and other activities used in processing
                                         tax information.
Stand Up                                 The stand-up process is defined as the
                                         establishment of a new organization with at
                                         least the minimum requirements for operation.
Systems Integrator                       The entity responsible for coordinating
                                         development projects into the modernized IRS
                                         systems.
Task Order                               A task order is an order for services planned
                                         against an established contract.




                                                                                  Page 26
                        Annual Assessment of the Business
                         Systems Modernization Program




Term                               Definition
Transition Management              Transition management helps ensure personnel
                                   and organizations are prepared to receive, use,
                                   operate, and maintain the business processes
                                   and technology provided by business change
                                   solutions.




                                                                          Page 27
                                                                    Annual Assessment of the Business
                                                                     Systems Modernization Program



                                                                                                                                        Appendix V

       Business Systems Modernization Funding Timeline

Chart 1 depicts cumulative funding received by the Internal Revenue Service (IRS) Business
Systems Modernization (BSM) program for contractor costs.
                                   Chart 1: BSM Program Funding Timeline (dollars are cumulative)

                          $2,400

                          $2,200                                                                                                                   $2,134

                          $2,000                                                                                                        $1,937

                          $1,800
                                                                                                                            $1,592
  Dollars (in millions)




                          $1,600                                                                                 $1,488
                          $1,400

                          $1,200
                                                                                                       $968
                          $1,000

                           $800
                                                                                            $577
                           $600
                                                                                $449
                           $400
                                                          $216       $249
                           $200
                                    $35         $68
                             $0
                                   Apr 1999   Dec 1999   Mar 2000   Aug 2000   Sept 2000   Mar 2001   Oct 2001   Jan 2003   Sept 2003   May 2004   Feb 2006


Source: BSM Expenditure Plans.




                                                                                                                                                   Page 28
                                                        Annual Assessment of the Business
                                                         Systems Modernization Program



Chart 2 depicts a timeline of the funding received annually by the BSM program for program
management and development of business and infrastructure projects.
                                           Chart 2: BSM Program Funding by Fiscal Year

                           $450               $414
                                                                 $391                 $388
                                                                           $378
                           $400

                           $350
   Dollars (in millions)




                           $300

                           $250
                                                                                                $203      $197
                           $200                                                                                     $167

                                                       $128
                           $150

                           $100

                                     $35
                           $50

                            $0
                                  1999     2000      2001     2002      2003       2004      2005      2006      2007 *
                                                                     Fiscal Year

Source: BSM Expenditure Plans. * NOTE – The 2007 amount has not yet been appropriated; the figure is from the
President’s Fiscal Year 2007 Budget Request.




                                                                                                                           Page 29
                                               Annual Assessment of the Business
                                                Systems Modernization Program



Chart 3 depicts the cumulative funding received by the BSM program for internal
(noncontractor) costs of managing BSM activities. The IRS stated approximately
25 percent of its noncontractor budget since Fiscal Year 2001 has been used to support non-BSM
program activities in the IRS.
 Chart 3: Internal (noncontractor) BSM Funding Timeline (dollars are cumulative)
                         $250

                                                                                                     $220.0


                         $200

                                                                                        $170.2
 Dollars (in millions)




                         $150

                                                                            $119.0


                         $100
                                                                  $82.4


                                                       $54.3
                         $50
                                               $27.6
                                       $11.8
                                $6.2
                          $0
                                1999   2000    2001    2002        2003      2004        2005         2006
                                                          Fiscal Year

Source: Actual expenditures for Fiscal Years 1999 through 2005 and the budget estimate for Fiscal Year 2006
provided by the IRS.




                                                                                                       Page 30
                                                Annual Assessment of the Business
                                                 Systems Modernization Program



Chart 4 depicts a timeline of the funding received annually by the BSM program for internal
(noncontractor) costs of managing BSM activities.
                                Chart 4: Internal (noncontractor) BSM Costs by Fiscal Year

                                                                                        $51.2
                                                                                                     $49.8
                         $50




                         $40                                                $36.6
 Dollars (in millions)




                         $30                                        $28.1
                                                         $26.7



                         $20
                                                $15.8


                         $10
                               $6.2    $5.6


                         $0
                               1999    2000     2001     2002        2003   2004         2005         2006
                                                            Fiscal Year

Source: Actual expenditures for Fiscal Years 1999 through 2005 and the budget estimate for Fiscal Year 2006
provided by the IRS.




                                                                                                       Page 31
                                         Annual Assessment of the Business
                                          Systems Modernization Program



Chart 5 depicts the funding received by the BSM program for internal (noncontractor) and
external (contractor) costs of managing BSM activities.
             Chart 5: Internal and External BSM Program Costs (in millions)


                                                         $2 2 0
                                                  Int er nal C o st s




                                                                                   $2,354 million
                                                       $2 , 13 4
                                                  Ext er nal C o st s
                                                                                  Total BSM Costs
                                                                              Fiscal Years 1999 - 2006




                               Dollars (in millions)


Source: Actual internal expenditures for Fiscal Years 1999 through 2005 and the internal budget estimate for
Fiscal Year 2006 provided by the IRS. The external costs were derived from BSM Expenditure Plans.




                                                                                                         Page 32
                                        Annual Assessment of the Business
                                         Systems Modernization Program



                                                                                                Appendix VI

                              Highest Priority Initiatives

 Recently, the Internal Revenue Service (IRS) began transitioning numerous program
 management activities away from the PRIME contractor1 and taking over the primary role as the
 systems integrator. To accomplish the transition, the IRS created a number of Highest Priority
 Initiatives to develop, implement, and execute a variety of activities. Table 1 lists the transition
 Highest Priority Initiatives2 identified by the IRS and the status as of January 2006.
                               Table 1: IRS Highest Priority Initiatives
 Highest Priority
                     Status                                        Description
    Initiatives
     HPI-01          Closed    Complete human capital strategy (develop detailed recruiting plan).
     HPI-02          Open      Develop the next level of the IRS Business Systems Modernization program
                               management capability.
      HPI-03         Closed Strengthen IRS systems engineering capability through external hiring or leverage
                               contractor capabilities.
      HPI-05         Closed Standardize contracting solicitation language for reporting requirements.
      HPI-06         Closed Transition support for deploying new projects from the PRIME contractor.
      HPI-07         Closed Implement new role for Business Systems Modernization Quality Assurance.
      HPI-08         Closed Transition primary responsibility for integrated schedule management and baseline
                               management from the PRIME contractor.
      HPI-09         Closed Transition primary responsibility for program management of cost and schedule
                               estimation from the PRIME contractor.
      HPI-10          Open     Change request process.
      HPI-11         Closed Enhance IRS Extensible Markup Language standards and guidelines.
      HPI-12         Closed Stand up business rules management operation.
      HPI-13         Closed Stand up Requirements Management Office.
      HPI-17         Closed Assume responsibility for enterprise transition strategy development.
      HPI-19          Open     Continue to build on current IRS Modernization Vision and Strategy.
      HPI-23          Open     Upgrade the Enterprise Life Cycle3 methodology.
Source: Identification of Highest Priority Initiatives related to the transition was provided by IRS management.
Status and description of each Highest Priority Initiative was obtained from an IRS status report dated
January 2006.



 1
   See Appendix IV for a Glossary of Terms.
 2
   The HPI numbers that are skipped in Table 1 are unrelated to the transition of program management activities
 away from the PRIME contractor.
 3
   See Appendix VII for an overview of the Enterprise Life Cycle.
                                                                                                           Page 33
                                        Annual Assessment of the Business
                                         Systems Modernization Program



                                                                                      Appendix VII

                         Enterprise Life Cycle Overview

The Enterprise Life Cycle (ELC) is the Internal Revenue Service’s (IRS) standard approach to
business change and information systems initiatives. It is a collection of program and project
management best practices designed to manage business change in a successful and repeatable
manner. The ELC addresses large and small projects developed internally and by contractors.
The ELC includes such requirements as:
      •    Development of and conformance to an enterprise architecture.
      •    Improving business processes prior to automation.
      •    Use of prototyping and commercial software, where possible.
      •    Obtaining early benefit by implementing solutions in multiple releases.1
      •    Financial justification, budgeting, and reporting of project status.
In addition, the ELC improves the IRS’ ability to manage changes to the enterprise; estimate the
cost of changes; and engineer, develop, and maintain systems effectively. Figure 1 provides an
overview of the layers, paths, phases, and milestones (shown as “MS” in Figure 1) within the
ELC Framework.




1
    See Appendix IV for a Glossary of Terms.
                                                                                            Page 34
                                                                       Annual Assessment of the Business
                                                                        Systems Modernization Program



                                                                      Figure 1: ELC Framework
  Governance Management




                                                                                            Acquisition Management
                Layer




                                                                                             Program Management

                                                                                      Implementation Project Management
    Layer




                                                           MS0               MS1                MS2             MS3              MS4A         MS4B                MS5


                          Large Custom Path
                          Small Custom Path
  Solution Life Cycle




                          Commercial-Off-the-
                          Shelf Path             Vision and
                                                 Strategy /                           Domain                                          System           System       Operations and
         Layer




                          Joint Application                         Project                         Preliminary Detailed Design
                                                 Enterprise                         Architecture                                    Development      Deployment      Maintenance
                          Development /                        Initiation Phase                    Design Phase     Phase
                                                Architecture                           Phase                                           Phase           Phase            Phase
                          Rapid Application
                                                   Phase
                          Development Path
                          Iterative Custom
                          Path
  Methodology Solution




                                                Various Work    Various Work       Various Work    Various Work    Various Work     Various Work   Various Work
               Layer




                                                Products and    Products and       Products and    Products and    Products and     Products and   Products and
                                                  Reviews         Reviews            Reviews         Reviews         Reviews          Reviews        Reviews
     Layer




                                                                      Developer's Business Change or System Change Methodology



                                                                                  Enterprise Integration, Test, and Evaluation
  Specialty Areas




                                                                                  Business Rules Harvesting and Management
                                                                                             Transition Management
      Layer




                                                                                             Enterprise Architecture
                                                                                    Capital Planning and Investment Control
                                                                                              Security and Privacy
                                                                                  Requirements Development and Management

Source: Graphical representation of the ELC Framework modified from the ELC Guide.

ELC Layers
The ELC is a framework for organizing and using IRS directives, processes, procedures,
templates, and standards to accomplish business change. It is organized as a set of
6 interacting layers.
           •               The Management Layer specifies how to plan and control business change programs,
                           projects, acquisitions, and solutions throughout the ELC.
           •               The Governance Layer specifies additional controls imposed from outside the project or
                           program.
           •               The Solution Life Cycle Layer specifies what should be done but not how to do it.
           •               The Solution Layer manages the solution as it is produced, including providing
                           standards for consistent solution specification and formal review of solution content.
                           This Layer provides control over work products that may be produced by multiple
                           internal and external developers using differing methodologies.


                                                                                                                                                                        Page 35
                                 Annual Assessment of the Business
                                  Systems Modernization Program



   •   The Methodology Layer details how to do the work and specifies a unique set of work
       products to be produced. Specific methodologies are not part of the ELC Framework.
   •   The Specialty Areas Layer provides additional guidance for areas of particular
       importance within the IRS. These areas include Enterprise Integration, Test, and
       Evaluation; Business Rules Harvesting and Management; Transition Management;
       Enterprise Architecture; Capital Planning and Investment Control; Security and Privacy;
       Requirements Development and Management.

ELC Paths
A path specifies a unique “philosophy” or orientation for performing the work. Although the
ELC specifies a standard for the work required to produce and operate business change solutions,
there are multiple ways to approach and accomplish the required work. Paths are like alternate
roads, each of which crosses different terrain, but all of which lead to the same destination. The
ELC provides five distinct paths or approaches to developing systems:
   •   The Large Custom Path is for large projects.
   •   The Small Custom Path is for small projects.
   •   The Commercial-Off-the-Shelf Path is a commercial software-based approach.
   •   The Joint Application Development/Rapid Application Development Path is a highly
       accelerated, prototyping-based approach for very small, standalone solutions or solution
       components.
   •   The Iterative Custom Path is a hybrid approach that combines elements of the other
       approaches.

ELC Phases and Milestones
A phase is a broad segment of work encompassing activities of similar scope, nature, and detail
and providing a natural breakpoint in the life cycle. Each phase begins with a kickoff meeting
and ends with an executive management decision point (called a milestone) at which IRS
executives make “go/no-go” decisions for continuation of a project. Project funding decisions
are often associated with milestones.




                                                                                          Page 36
                                        Annual Assessment of the Business
                                         Systems Modernization Program



                                 Figure 2: ELC Phases and Milestones
                                                      General Nature                       Concluding
              Phase                                       of Work                           Milestone
 Vision and Strategy/              High-level direction setting. This is the only phase
                                                                                               0
 Enterprise Architecture Phase     for enterprise planning projects.
 Project Initiation Phase          Startup of development projects.                            1
 Domain Architecture Phase         Specification of the operating concept, requirements,
                                                                                               2
                                   and structure of the solution.
 Preliminary Design Phase          Preliminary design of all solution components.              3
 Detailed Design Phase             Detailed design of solution components.                    4A
 System Development Phase          Coding, integration, testing, and certification of
                                                                                              4B
                                   solutions.
 System Deployment Phase           Expanding availability of the solution to all target
                                   users. This is usually the last phase for development       5
                                   projects.
 Operations and Maintenance        Ongoing management of operational systems.               System
 Phase                                                                                     Retirement
Source: The ELC Guide.




                                                                                                        Page 37
                                        Annual Assessment of the Business
                                         Systems Modernization Program



                                                                                                 Appendix VIII

Business Systems Modernization Projects and Status

Table 1 presents the modernization projects initiated by the Internal Revenue Service (IRS) and
the IRS’ status of these projects as of February 2006.
                         Table 1: Business Systems Modernization Projects

                             Year
                           Initiated/
                             Year
      Project Name         Launched            Project Description              Project Status per the IRS
    Custodial              Initiated    Uses a data warehousing             Canceled February 2005.
    Accounting Project      1999/       approach for storing, analyzing,
                             Not        and reporting taxpayer accounts
                           Launched     and collections information.
    Infrastructure
    Shared Services:
    Security and           Initiated    Provides a customer-focused         • Provides secure Internet solutions for
    Technology              1999/       technical infrastructure for          registered and employee users and
    Infrastructure         Launched     secure telephone and electronic       related registration processes, security
    Release1                 2002       interaction among employees,          access controls, intrusion detection,
                                        tax practitioners, and taxpayers.     and audit trail processing.
                                                                            • Is critical to the success of the
                                                                              Integrated Financial System (IFS),
                                                                              e-Services, Internet Refund/Fact of
                                                                              Filing (IRFoF), Modernized e-file
                                                                              (MeF), and Internet Employee
                                                                              Identification Number projects that
                                                                              rely on secure, robust portal access.
                                                                            • Supports the acquisition, installation,
                                                                              and operation of the development and
                                                                              test environments that support all
                                                                              modernization initiatives. The
                                                                              increased stability of the
                                                                              Development, Integration, and Test
                                                                              Environment and timely acquisition
                                                                              of hardware/software to support
                                                                              project schedules has contributed


1
    See Appendix IV for a Glossary of Terms.
                                                                                                              Page 38
                                   Annual Assessment of the Business
                                    Systems Modernization Program




                        Year
                      Initiated/
                        Year
 Project Name         Launched         Project Description                Project Status per the IRS
Security and                                                           significantly to improved project
Technology                                                             performance.
Infrastructure
Release (continued)
Enterprise Systems    Initiated    Executes a strategy to provide    • Provides enterprise systems
Management             2000/       network and systems                 management and monitoring of the
                      Launched     management to improve the           e-Services, IFS, MeF, and IRFoF
                        2002       information technology              projects and core infrastructure
                                   infrastructure availability and     systems.
                                   performance.
                                                                     • Gathers information and provides
                                                                       appropriate response through
                                                                       monitors at the component, business,
                                                                       and enterprise levels.
                                                                     • Provides reliability, high availability,
                                                                       and optimal performance of complex
                                                                       e-business infrastructure and
                                                                       applications, helping to meet and
                                                                       exceed both internal and external
                                                                       service level agreements and
                                                                       reducing total cost of ownership.
                                                                     • Allows for proactive identification
                                                                       and resolution of information
                                                                       technology problems before they
                                                                       affect business performance.
Customer              Initiated    Improves communications           • 68,000 calls in one 3-minute period
Communications         1999/       infrastructure, including           during initial week (coincided with
                      Launched     telephone call management,          start of Advanced Tax Refund of
                        2001       call routing, and customer          2001).
                                   self-service applications.
                                                                     • 50 percent reduction in wait time for
                                                                       assistors to answer calls.
                                                                     • 50 percent reduction in abandoned
                                                                       calls.
                                                                     • More accurate prerouting of calls.




                                                                                                        Page 39
                                Annual Assessment of the Business
                                 Systems Modernization Program




                     Year
                   Initiated/
                     Year
 Project Name      Launched         Project Description                 Project Status per the IRS
Customer           Initiated    Provides standard tax              • Deployed to almost 4,000 Large/
Relationship        1999/       computation software to Large        Medium/Small Business revenue
Management Exam    Launched     and Mid-Size Business                agents.
                     2001       Division revenue agents.
                                                                   • Taxpayers can independently verify a
                                                                     revenue agent’s computations.
                                                                   • Allows for “what-if” computations to
                                                                     better use the examiners’ and
                                                                     taxpayers’ time.
Customer Account   Initiated    Provides an online, modernized     • CADE Release 1.1 went into
Data Engine         2000/       data infrastructure that will        production the week of July 12, 2004,
(CADE)             Launched     house the authoritative taxpayer     issuing refunds over 50 percent faster
                     2004       account and return data.             than the legacy Master File.
                                                                   • The processing of returns in the
                                                                     CADE marks the first time in
                                                                     40 years that American tax returns
                                                                     have been processed in a system other
                                                                     than the Master File.
                                                                   • CADE Release 1.3.2 was
                                                                     implemented in January 2006. The
                                                                     CADE is now able to process a subset
                                                                     of Forms 1040EZ, 1040, and 1040A
                                                                     with no schedules.
                                                                   • Since implementation, CADE
                                                                     Release 1.3.2 has posted
                                                                     1,217,961 returns and issued over
                                                                     975,000 refunds totaling in excess of
                                                                     $700,000,000. The total refund dollar
                                                                     amount surpasses the total for all of
                                                                     the 2005 Filing Season.
                                                                   • Direct deposit refunds continue to be
                                                                     issued 4 business days after posting to
                                                                     the CADE, and paper refunds
                                                                     continue to be issued 6 business days
                                                                     after posting to the CADE.
                                                                   • For the 2005 Filing Season, over
                                                                     1,400,000 returns were posted by the
                                                                     CADE. Over 475,000 electronic
                                                                     refunds and over 927,000 paper
                                                                     refunds were issued by the CADE,

                                                                                                    Page 40
                                Annual Assessment of the Business
                                 Systems Modernization Program




                     Year
                   Initiated/
                     Year
 Project Name      Launched         Project Description              Project Status per the IRS
CADE (continued)                                                   which combined totaled over
                                                                   $427,000,000.
                                                                 • Since implementation of CADE
                                                                   Release 1.3.2, $1.2 million in
                                                                   potential Refund Anticipation Loan
                                                                   fees were eliminated.

e-Services          Initiated   Focuses on revolutionizing the   • Over 140,000 online registration
                     2000/      way taxpayers transact and         participants of the Registered User
                   Launched     communicate with the IRS.          Portal.
                   2003-2004
                                                                 • Over 140,000 Electronic Return
                                                                   Originator applications for e-file.
                                                                 • Over 273,000 online requests for
                                                                   Preparer Taxpayer Identification
                                                                   Numbers.
                                                                 • Over 89 million bulk Taxpayer
                                                                   Identification Number match requests
                                                                   processed.
                                                                 • Over 3 million interactive Taxpayer
                                                                   Identification Number match requests
                                                                   since launch.
                                                                 • The Taxpayer Identification Number
                                                                   matching tool in the current suite of
                                                                   e-Services applications has uncovered
                                                                   over $15 million in unpaid taxes on
                                                                   Miscellaneous Income (Form 1099
                                                                   series).
                                                                 • The Transcript Delivery System has
                                                                   processed over 412,000 requests for
                                                                   transcripts via the Registered User
                                                                   Portal and over 2 million via the
                                                                   Employee User Portal since launch on
                                                                   May 16, 2005.
                                                                 • Over 48,000 Power of Attorney and
                                                                   Declaration of Representative
                                                                   (Form 2848) requests have been
                                                                   received through Disclosure
                                                                   Authorization.



                                                                                                   Page 41
                                Annual Assessment of the Business
                                 Systems Modernization Program




                    Year
                  Initiated/
                    Year
 Project Name     Launched          Project Description                Project Status per the IRS
e-Services                                                         • Over 15,000 users are now using the
(continued)                                                          Employee User Portal for handling
                                                                     transcript requests.
                                                                   • Received and processed over
                                                                     11,000 requests via Electronic
                                                                     Account Resolution.
                                                                   • Total operational savings (print/mail/
                                                                     labor costs) of over $8.2 million (as
                                                                     of 2/16/2006).
Human Resources   Initiated     Delivers an enterprise solution    • All IRS employee accounts are now
Connect            2001/        to allow IRS employees to            on Human Resources Connect.
                  Launched      access and manage their human
                    2002        resources information online.      • Accessible by kiosks for campus
                                                                     employees who do not have desktop
                                                                     access.
                                                                   • Human Resources Connect upgraded
                                                                     the software platform to
                                                                     PeopleSoft 8.3®; enhancements
                                                                     include increased employee
                                                                     self-service functionality and
                                                                     additional management reports.
                                                                   • Human Resources Connect
                                                                     Workforce Analytics offers
                                                                     management information to each
                                                                     business unit based on its
                                                                     organizational requirements (e.g., the
                                                                     status of the workforce, vacancies,
                                                                     upcoming retirements, and pending
                                                                     personnel actions are available at
                                                                     each management level).
                                                                   • Cited by the IRS Commissioner as a
                                                                     factor in the redirection of roughly
                                                                     750 staff years to enforcement.
IFS               Initiated     Operates as the new IRS            • Achieved initial operating capability
                  2001/         accounting system, replacing         on November 10, 2004, and achieved
                  Release 1     the IRS’ core financial systems,     full operating capability on
                  launched in   including expenditure controls,      January 31, 2005.
                  2004          accounts payable, accounts
                                receivable, general ledger,        • Over 1,700 end users have been
                                                                     trained and are using the IFS daily.


                                                                                                      Page 42
                               Annual Assessment of the Business
                                Systems Modernization Program




                    Year
                  Initiated/
                    Year
 Project Name     Launched         Project Description                 Project Status per the IRS
IFS (continued)                budget formulation, and            • 100 percent of the backlogged
                               purchasing controls.                 invoices created during the cutover
                                                                    period have been paid.
                                                                  • Successfully processing all payroll
                                                                    data. All IFS databases retain current
                                                                    payroll information.
                                                                  • Over 171,000 procurement
                                                                    commitments, obligations, and
                                                                    receipt/acceptance documents have
                                                                    been processed.
                                                                  • The monthly Statement of
                                                                    Transactions (Form SF-224) has been
                                                                    submitted to the Department of the
                                                                    Treasury on time since going live in
                                                                    November 2004.
                                                                  • The monthly accounting report has
                                                                    been submitted to the Department of
                                                                    the Treasury on time, within the
                                                                    3-day close time period, since the IFS
                                                                    went live in November 2004.
                                                                  • The IRS received a “clean audit
                                                                    opinion” from the Government
                                                                    Accountability Office in Fiscal
                                                                    Year 2005 – the IFS’ first year of
                                                                    operation.
IRFoF             Initiated    Improves customer self-service     • Processed 6.4 million refund
                   2001/       to the taxpayer by providing         status/fact of filing inquiries in this
                  Launched     instant refund status                fiscal year (as of 2/16/2006).
                    2002       information and instructions for
                               resolving refund problems to       • For the 2005 Filing Season, “Where’s
                               taxpayers with Internet access.      My Refund” reduced telephone
                                                                    refund call volumes by nearly
                                                                    24 percent.
                                                                  • Thirty-two percent of all refund
                                                                    inquiry contacts are handled by the
                                                                    IRFoF application via the Internet.
                                                                  • Modest reduction of IRS
                                                                    telecommunications costs (about
                                                                    $250,000).


                                                                                                      Page 43
                                         Annual Assessment of the Business
                                          Systems Modernization Program




                            Year
                          Initiated/
                            Year
      Project Name        Launched           Project Description               Project Status per the IRS
    IRFoF (continued)                                                      • Every 1,000 IRFoF contacts eliminate
                                                                             1,500 – 2,000 refund assistance calls.


    Advance Child Tax      Initiated    Modifies the IRFoF application     • 15.5 million inquiries in 2003;
    Credit                  2002/       to provide taxpayers with            12.3 million inquiries in 2004.
                           Launched     Advance Child Tax Credit
                             2003       refund status on the Internet.     • Peak date 1.1 million inquiries.
                                                                           • Application’s life cycle ended
                                                                             December 31, 2004.
    Internet Employee       Initiated   Allows businesses and              • 4.7 million Internet EIN applications
    Identification           2002/      taxpayers to apply for and           received as of 01/27/2006.
    Number (EIN)              2003      receive EINs over the Internet.
    Customer Account       Initiated    Interfaces the redesigned          • Suspended.
    Management              2002/       business processes to be used
                             Not        on a daily basis by IRS
                           Launched     customer service
                                        representatives. Due to budget
                                        constraints, the project has not
                                        been funded since Fiscal
                                        Year 2003.
    Filing and Payment       F&PC       Improves the processes and         • Release 1 will provide infrastructure,
    Compliance              Initiated   technologies that support the        processes, and organizational
    (F&PC) /                  2001      IRS’ filing compliance and           structure to implement the law
    Collection Contract                 collection activities and            authorizing private debt collection.2
                             F&PC
    Support                             manages the associated
                           Suspended
                                        organizational change.             • Release 1.1 was partially released in
                             2002                                            January 2006.
                           Collection                                      • Release 1.2, scheduled for
                            Contract                                         January 2007, will implement full
                            Support                                          inventory management capabilities.
                            Initiated
                              2003                                         • Release 1.3 will provide expanded
                                                                             functionality that enables delivery of
                                                                             the full volume of casework.
                                                                           • Release 2 will provide new collection
                                                                             tools to call centers and campuses.




2
    American Jobs Creation Act of 2004, Pub. L. No. 108-357, 118 Stat. 1418 (2004).
                                                                                                               Page 44
                                      Annual Assessment of the Business
                                       Systems Modernization Program




                         Year
                       Initiated/
                         Year
   Project Name        Launched          Project Description                 Project Status per the IRS
                       F&PC and                                        • Release 3 will provide new collection
                       Collection                                        tools to field operations.
                        Contract
                        Support
                       Combined
                         2004
                        Launched
                          2006
 MeF                    Initiated    Develops the modernized,          • Launched Release 1 February 2004.
                         2002/       web-based platform for filing
                        Launched     IRS forms electronically.         • Launched Release 2 August 2004.
                          2004                                         • Launched Release 3.1 January 2005.
                                                                       • Launched Release 3.2 January 2006.
                                                                       • The MeF project now provides
                                                                         e-filing for nearly 100 forms and
                                                                         schedules for large corporations,
                                                                         small businesses, and tax-exempt
                                                                         organizations.
                                                                       • Over 13,000 returns received since
                                                                         launch.
                                                                       • Over 14,000 participating Electronic
                                                                         Return Originators.
                                                                       • Error fallout rates for the MeF project
                                                                         are significantly lower than those for
                                                                         paper processing. For corporate
                                                                         returns alone, the MeF project has a
                                                                         fallout rate of 4 percent as compared
                                                                         to an 18 percent fallout rate for paper
                                                                         processing.
                                                                       • Over $18 million of real business
                                                                         savings to the American taxpayers
                                                                         and to the IRS for Fiscal Year 2005.
                                                                         o    Savings to the taxpayer in tax
                                                                              preparation fees, postage, and
                                                                              storage.
                                                                         o   Savings to the IRS in operational
                                                                             efficiencies.
Source: IRS status report entitled IRS Modernization Has Delivered Real Business Value dated February 2006.

                                                                                                        Page 45
                                       Annual Assessment of the Business
                                        Systems Modernization Program



                                                                                               Appendix IX

    Modernization Project Cost and Schedule Estimates
                      and Revisions

In 2004, the Internal Revenue Service (IRS) decided to revise existing project cost and schedule
estimates and began creating estimates for smaller pieces of work, known as subreleases. Prior
to revising the estimates, the Commissioner reported the IRS and its contractors had not met cost
or schedule estimates for any of its projects.1 Since breaking down releases into smaller, more
manageable pieces, the IRS and its contractors are doing better at meeting cost and schedule
estimates. In 2005, IRS executives also stated they were concerned the existing cost and
schedule variance methodology did not accurately depict variances within the Business Systems
Modernization (BSM) program and held meetings with the Government Accountability Office
and the Treasury Inspector General for Tax Administration to discuss better ways of presenting
and characterizing cost and schedule estimates. Based on these meetings, the IRS plans to use a
different methodology to calculate and present cost and schedule estimates in future Expenditure
Plans.
Table 1 provides a comparison of the original estimates in the IRS BSM Expenditure Plans since
May 2004 (when the IRS revised existing cost and schedule estimates) to estimates provided by
the IRS dated February 2006 using the existing cost and schedule variance methodology.




1
 In 2004, the Commissioner reported 1) the Customer Account Data Engine project had experienced a schedule
delay of 30 months and a resulting cost increase of approximately $37 million, 2) the Modernized e-File project had
experienced a schedule delay of 4.5 months and a resulting cost increase of approximately $17 million, 3) the
e-Services project had experienced a schedule delay of over 18 months and a resulting cost increase of
approximately $86 million, and 4) the Integrated Financial System project had experienced a schedule delay of over
7 months and a resulting cost increase of approximately $54 million. See Appendix IV for a Glossary of Terms.
                                                                                                          Page 46
                                       Annual Assessment of the Business
                                        Systems Modernization Program



           Table 1: IRS BSM Project Cost and Schedule Variance Summary
             Project                                         Cost           Schedule       Schedule
                                            Cost
Release      Launch        Milestone                       Variance         Variance       Variance
                                           Variance
              Date                                        Percentage      (in months)     Percentage
Customer Account Data Engine (CADE)
                        20052 Filing
  1.2     12/31/2004                    $10,000               0%                 0            0%
                          Season3
                        2006 Filing
 1.3.1    09/19/2005                       $0                 0%                 24           20%
                          Season
                             5
                        2006 Filing
 1.3.2    01/17/2006                       $0                 0%                 0            0%
                          Season
   2      In Progress        4a                                    In Progress
                         Calendar
                         Year 2005                                          Not             Not
                                       $1,935,000            24%
Program                   level of                                        Applicable      Applicable
              Not                6
Manage-                    effort
          Applicable
 ment                    Calendar
                         Year 2006                                 In Progress
                       level of effort
Modernized e-File
  3.1     03/24/2005          4            $0                0%                  0            0%
  3.2     03/22/2006          4        $7,550,000            32%                 0            0%
   4      In Progress         3                                    In Progress




2
  CADE Release 1.2 was initially referred to as “CADE Filing Season 2005” in the BSM Expenditure Plan.
3
  The period from January through mid-April when most individual income tax returns are filed.
4
  Schedule variance is calculated using calendar days.
5
  CADE Releases 1.3.1 and 1.3.2 were initially combined and referred to as “CADE Filing Season 2006” in the
BSM Expenditure Plan.
6
  Level of effort refers to performing program management and transition management activities.
                                                                                                       Page 47
                                          Annual Assessment of the Business
                                           Systems Modernization Program



               Project                                          Cost            Schedule        Schedule
                                               Cost
 Release       Launch         Milestone                       Variance          Variance        Variance
                                              Variance
                Date                                         Percentage       (in months)      Percentage
 Filing & Payment Compliance (F&PC)7
     1.1      01/24/2006       3,4,5           $0             0%                0             0%
     1.2      In Progress       4b                                  In Progress
 e-Services
                             Level of
                                           $4,100,000         51%               4             40%
      2        2/27/2004      effort8
                                 5             $0             0%                4             31%
 Integrated Financial System
                                 4         $14,000,000        18%               0             0%
      1       01/31/2005
                                 5         $9,035,000         60%               5            100%
Source: Treasury Inspector General for Tax Administration analysis of the BSM Expenditure Plans and data
provided by the IRS.




 7
   In the May 2004 Expenditure Plan, the IRS requested $15.5 million for the Collection Contract Support (CCS)
 project to reach Milestone 4b. These funds were requested prior to passage of a law that would allow work to begin
 in earnest on the CCS project. With passage of the American Jobs Creation Act of 2004 (Pub. L. No. 108-357,
 118 Stat. 1418 (2004)), the IRS reactivated the F&PC project. The first release of the F&PC project, which includes
 subreleases 1.1, 1.2, and 1.3, incorporates the capabilities originally planned for the CCS project. Once the IRS and
 its contractors began work on the capabilities for the F&PC project, both the Office of Management and Budget and
 the IRS determined it had not requested adequate funds to support the portion of the F&PC project dealing with
 private debt collection (i.e., the CCS project). As a result, the Office of Management and Budget allowed the IRS to
 redirect $13.4 million in funds from previous years to the first release of the F&PC project. In addition, the IRS
 revised its existing cost and schedule estimates in the latest Expenditure Plan to reflect current cost and schedule
 estimates for F&PC project. Prior to revising its existing cost and schedule estimates, the IRS had requested
 $22 million more than originally estimated for the CCS project and had not defined a precise end date for F&PC
 subrelease 1.3. The figures in Table 1 reflect the current baseline figures for the F&PC project.
 8
   e-Services level of effort refers to an upgrade from PeopleSoft® Customer Relationship Management Version 8.1
 to PeopleSoft® Customer Relationship Management Version 8.8.
                                                                                                            Page 48
                                         Annual Assessment of the Business
                                          Systems Modernization Program



                                                                                                   Appendix X


      Open Recommendations Related to the Systems
           Modernization Material Weaknesses

Table 1 lists Treasury Inspector General for Tax Administration (TIGTA) audit
recommendations with current Internal Revenue Service (IRS) open corrective actions related to
a modernization material weakness.
      Table 1: TIGTA Recommendations Related to the Systems Modernization
                             Material Weakness
The Modernization, Information Technology and Security Services Organization Needs to Take Further Action
to Complete Its Human Capital Strategy (Reference Number 2003-20-209, dated September 2003)
                      To ensure the Modernization Information Technology Services (MITS) organization has
                      sufficient data to determine human capital demands, the Chief Information Officer (CIO)
                      needs to support the Director, Management Services, to work with offices throughout the
    2003-20-209
                      MITS organization to identify the human capital demand. The demand includes information
     Finding 1,
                      to adequately plan the number, location, and assignment schedule of human capital assets
Recommendation 1
                      for existing information systems (from owners in the Information Technology Services
                      organization) and future MITS organization operations (from owners in the Business
                      Systems Modernization [BSM] program).
                      To ensure the MITS organization has adequate staffing to meet its needs, the CIO should
                      charge the Director, Management Services, with developing detailed hiring and retention
                      plans. These plans should consider staff position “return on investment” as a consideration
                      for determining the type of talent to recruit or retain and should be incorporated into the
    2003-20-209
                      MITS organization’s human capital strategy with relevant links to its budget.
     Finding 1,
                      Recruiting: Prioritize the most critical skill needs and position locations with project
Recommendation 2
                      development, deployment, implementation, and operation schedules. Proceed with hiring
                      specific skills based on decisions for recruiting the subject position with either fully trained
                      or trainable talent or through an internship position. Retention: Identify and compile
                      retention incentives into a plan to maintain the MITS organization talent pool.
Risks Are Mounting as the Integrated Financial System Project Team Strives to Meet an Aggressive
Implementation Date (Reference Number 2004-20-001, dated October 2003)
    2004-20-001       To ensure a high-quality system is delivered, the CIO should ensure the disaster recovery
     Finding 2,       environment is completely built out and tested as soon as possible.
Recommendation 1
The Office of Release Management Can Improve Controls for Modernization Program Coordination
(Reference Number 2004-20-157, dated September 2004)
    2004-20-157       To help provide clear direction in the development of the BSM program, the CIO should
     Finding 1,       determine whether and how the BSM Office will fulfill the BSM program integrator role
Recommendation 1 and document the related responsibilities and processes.



                                                                                                             Page 49
                                         Annual Assessment of the Business
                                          Systems Modernization Program



To Ensure the Customer Account Data Engine’s Success, Prescribed Management Practices Need to Be
Followed (Reference Number 2005-20-005, dated November 2004)
   2005-20-005       The CIO should direct the BSM Office to ensure inefficient manual processes are automated
    Finding 3,       in future Customer Account Data Engine releases.
Recommendation 1
Business Cases for Information Technology Projects Need Improvement (Reference Number 2005-20-074,
dated April 2005)
                     The CIO should require the Project Managers of operational systems to document the results
                     of their e-Government reviews in their projects’ business cases. [OFFICE OF AUDIT
                     COMMENT: In the narrative section of the management response, the CIO took the
                     position that e-Government reviews are not required for existing projects that are scheduled
                     for replacement by modernization projects and stated the Office of Management and Budget
                     approved this position. We disagree with management’s position that e-Government
   2005-20-074
                     reviews are not required for projects that have been scheduled for replacement by
    Finding 4,
                     modernization projects. Since the IRS modernization efforts are scheduled to be
Recommendation 1
                     implemented over several years, we believe the IRS could have many opportunities to
                     improve the efficiency of existing projects before they are modernized. We found no
                     documentation that the Office of Management and Budget had approved the IRS’ position.
                     We will revisit this issue in our audit of the Budget Year 2007 submission. During the
                     followup review, we will also evaluate management’s progress in developing
                     e-Government reviews for those projects not scheduled for replacement.]
Controls Need to Be Strengthened to Ensure the Modernized e-File Project Meets Its Expectations (Reference
Number 2005-20-103, dated September 2005)
                     To help ensure the efficient and effective development of modernization projects, the CIO
                     should ensure project teams follow the Enterprise Life Cycle1 provisions for managing
   2005-20-103       requirements by tracing System Requirements Report requirements to the Requirements
    Finding 1,       Traceability Verification Matrix. In addition, the project team should document
Recommendation 1 implementation of all requirements throughout the project life cycle in the System
                     Requirements Report. This control will provide assurance about the development of all
                     requirements.
                     To help provide an efficient and effective process for implementing mandatory change
   2005-20-103       requests, the CIO should direct the BSM Office to follow the Business Systems
    Finding 3,       Development organization’s concepts of establishing deadlines for submitting and
Recommendation 2 approving a Request for Information Services2 to help ensure timely implementation of
                     mandatory change requests.
Security Controls Were Not Adequately Considered in the Development and Integration Phases of
Modernization Systems (Reference Number 2005-20-128, dated August 2005)
                     Revise the Enterprise Life Cycle to require disaster recovery planning in the development
   2005-20-128
                     phase of the system life cycle. A complete Disaster Recovery Plan should be required that
    Finding 1,
                     addresses all modernization systems. During development, computer capacity and business
Recommendation 2
                     resumption requirements should be gathered and considered.




1
    See Appendix VI for an overview of the Enterprise Life Cycle.
2
    See Appendix IV for a Glossary of Terms.
                                                                                                         Page 50
                                        Annual Assessment of the Business
                                         Systems Modernization Program



                       To address the testing of security controls for modernization systems in the integration
  2005-20-128          phase, the Chief, Mission Assurance and Security Services, should enhance the Security
    Finding 2,         Test and Evaluation process to include the use of additional off-the-shelf security testing
Recommendation 1       tools to identify security vulnerabilities. More efficient tools that are already available to
                       the IRS for generating test reports should also be used.
Monitoring of PRIME Contractor Access to Networks and Data Needs to Be Improved (Reference Number
2005-20-185, dated September 2005)
   2005-20-185
                       The Chief, Mission Assurance and Security Services, should ensure audit trail reviews of
     Finding 1,
                       contractor activity are conducted as prescribed by IRS procedures.
Recommendation 3
While Improvements Have Been Made, Business Systems Modernization Cost and Schedule Estimation
Processes Have Not Always Been Followed and Major Changes Are Planned (Reference Number 2006-20-002,
dated October 2005)
   2006-20-002         To ensure cost and schedule estimate reviews can be conducted effectively in the absence of
     Finding 1,        the PRIME Estimation Guidebook, the CIO should ensure all modernization systems
Recommendation 1 development contractors provide consistent cost and schedule estimation data.
                       To ensure adequate documentation on the use of a second cost and schedule estimation
   2006-20-002         method is received for review, the CIO should develop an alternative way to clearly inform
     Finding 2,        modernization contractors when the use of a second estimation method is needed and issue
Recommendation 1 clear guidance requiring the results of using multiple estimation methods to be explained in
                       the documentation submitted with estimate proposals.
The Business Systems Modernization Program Has Achieved Mixed Success in Addressing Weaknesses
Identified in Internal and External Studies (Reference Number 2006-20-003, dated November 2005)
                       To ensure study weaknesses and previous recommendations concerning
   2006-20-003         change/configuration management are addressed, the Associate CIO, Enterprise Services,
     Finding 1,        should create an overall plan that includes defined tasks, responsible individuals, and
Recommendation 2 estimated completion dates for implementing the standardized configuration management
                       toolset.
                       To ensure study weaknesses are addressed as part of the new IRS/PRIME contractor
                       operating model, the Associate CIO, BSM, should assume the responsibility for correcting
                       the identified study weaknesses concerning project metrics by a) identifying a group of
                       standardized productivity and quality metrics needed for all projects across the entire life
   2006-20-003
                       cycle, defining these metrics, ensuring the metrics are collected or calculated, and using the
     Finding 1,
                       metrics to consistently manage projects and b) considering the impact of project-level
Recommendation 4
                       metrics on the effort by the Deputy Associate CIO, Business Integration, to develop
                       program-level metrics. Identification of a standard set of project-level metrics could
                       collectively become program-level metrics or provide needed details for analysis in trends at
                       the program level.
Instilling More Discipline to Business Rules Management Will Help the Modernization Program Succeed
(Reference Number 2006-20-009, dated December 2005)
                       When independent validations of project work plans are to be performed, the CIO should
   2006-20-009         ensure independent validations of project work plans are performed and recommendations
     Finding 2,        are addressed prior to beginning project execution. This practice would help ensure planned
Recommendation 1 activities and target dates are reasonable and independent validation recommendations are
                       adequately resolved and documented.




                                                                                                             Page 51
                                         Annual Assessment of the Business
                                          Systems Modernization Program



 The Alternatives for Designing and Developing the Filing and Payment Compliance Project Should Be
 Revalidated (Reference Number 2006-20-026, dated December 2005)
                       The CIO should revalidate the Alternatives Analysis, develop and maintain adequate
    2006-20-026        documentation to support the IRS’ decision to purchase commercially available software,
     Finding 1,        and revise the Exhibit 300,3 if warranted. As part of the revalidation process, the IRS should
 Recommendation 1 perform a quality review of all supporting documentation for the Exhibit 300 to ensure the
                       reliability of the documentation.
Source: The Joint Audit Management Enterprise System (as of February 2006).




 3
     See Appendix IV for a Glossary of Terms.




                                                                                                            Page 52
                                        Annual Assessment of the Business
                                         Systems Modernization Program



                                                                                                     Appendix XI

       Recent Treasury Inspector General for Tax
    Administration Reports and Associated Findings on
            Business Systems Modernization

Table 1 lists Treasury Inspector General for Tax Administration reports issued from May 2005
through March 2006 and associated findings related to the Business Systems Modernization
program.
      Table 1: Recent Treasury Inspector General for Tax Administration Findings
           Report Title                                                 Findings
Individual Income Tax Return       The current scope    More accounts could
Information Was Accurately and     of the Customer      be retained on the
Timely Posted to the Customer      Account Data         Customer Account
                                           1
Account Data Engine (Reference     Engine is limited,   Data Engine.
Number 2005-40-109, dated          and expanding it
July 2005)                         will be
                                   challenging.

Controls Need to Be Strengthened   The project team     Processes to manage    The Modernized
to Ensure the Modernized e-File    did not follow       change requests do     e-File project team
Project Meets Its Expectations     control processes    not provide reliable   needs to work with
(Reference Number 2005-20-103,     to ensure all        information to         its customers to
dated September 2005)              Modernized e-File    monitor project        receive change
                                   project              development.           requests timely.
                                   requirements are
                                   developed.

While Improvements Have Been       Corrective actions   Cost and schedule      Cost and schedule
Made, Business Systems             for two previous     estimation processes   estimates show
Modernization Cost and Schedule    audit                have not always been   signs of
Estimation Processes Have Not      recommendations      followed.              improvement;
Always Been Followed and Major     were not                                    however,
Changes Are Planned (Reference     completed by the                            development and
Number 2006-20-002, dated          original due dates                          deployment
October 2005)                      and will be                                 variances have
                                   affected by                                 been substantial.
                                   program changes.




1
    See Appendix IV for a Glossary of Terms.
                                                                                                          Page 53
                                           Annual Assessment of the Business
                                            Systems Modernization Program



          Report Title                                                       Findings
 The Business Systems                 Additional work is
 Modernization Program Has            required to
 Achieved Mixed Success in            completely address
 Addressing Weaknesses Identified     six closed Business
 in Internal and External Studies     Systems
 (Reference Number 2006-20-003,       Modernization
 dated November 2005)                 Challenges Plan
                                      action items.

 Instilling More Discipline to        The business rules     Recommendations         The Submission       The business rules
 Business Rules Management Will       office needs to        from the independent    and Settlement       engine repository
 Help the Modernization Program       incorporate its        technical review were   Harvesting Project   may not be procured
 Succeed (Reference Number            current approach       not timely considered   Management Plan      timely and needs to
 2006-20-009, dated                   into the               to ensure effective     has not been         meet requirements
 December 2005)                       Modernization          Project Management      completed and        of all customers.
                                      Vision and             Plan development.       approved.
                                      Strategy.

 Instilling More Discipline to        Additional actions
 Business Rules Management Will       are needed to
 Help the Modernization Program       ensure the
 Succeed (Reference Number            successful
 2006-20-009, dated                   integration of
 December 2005)                       business rules
                                      engine technology.

 The Alternatives for Designing and   The Internal
 Developing the Filing and Payment    Revenue Service
 Compliance Project Should Be         could not provide
 Revalidated (Reference Number        adequate
 2006-20-026, dated                   documentation to
 December 2005)                       support its decision
                                      to purchase
                                      commercially
                                      available software.

 Strengthened Management              The Internal
 Processes Are Needed to Assure       Revenue Service
 the Usefulness of Products and       did not receive the
 Services Received Through the        anticipated value
 Infrastructure Shared Services       for all work items
 Task Order (Reference Number         it received.
 2006-20-063, dated March 2006)

Source: Treasury Inspector General for Tax Administration reports issued from July 2005 through March 2006.




                                                                                                                   Page 54
            Annual Assessment of the Business
             Systems Modernization Program



                                                Appendix XII

Management’s Response to the Draft Report




                                                      Page 55
